U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

October 30, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Department of Homeland Security v. Vijayakumar Thuraissigiam, No. 19-161
Dear Mr. Harris:
On October 18, 2019, the Court granted the petition for a writ of certiorari in the abovecaptioned case. The government's brief on the merits is currently due on December 2, 2019.
Because of scheduling difficulties and the press of other matters before the Court, the
parties respectfully request, under Rule 30.4 of the Rules of this Court, a 7-day extension of time,
to and including December 9, 2019, within which to file the petitioner's opening brief and joint
appendix; and a corresponding 7-day extension of time, to and including January 15, 2020, within
which to file the respondent's brief. If those extensions are granted, the reply brief would be due
on February 14, 2020.
The parties have agreed on the schedule above, which is necessary to accommodate the
litigation schedules of counsel.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-016 1
DEPARTMENT OF HOMELAND SECURITY, ET AL.
VIJAUAKUMAR THURAIS SIGIAM

LEE P. GELERNT
ACLU - AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
212-549-2660
LGELERNT@ACLU.ORG
JOHN DAVID LOY
ACLU FOUNDATION OF SAN DIEGO AND
IMPERIAL COUNTIES
P0 BOX 87131
SAN DIEGO, CA 92138
619-232-2121
DAVIDLOY@ACLUSANDIEGO.ORG
JENNIFER C. NEWELL
AMERICAL CIVLI LIBERTIES UNION
FOUNDATION IMMIGRANTS' RIGHTS
PROJECT
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-343-0781
JNEWELL@ACLU.ORB

